                       U.S. Environmental Protection Agency 	                                                  11-P-0429
                                                                                                           August 3, 2011
                       Office of Inspector General


                       At a Glance
                                                                              Catalyst for Improving the Environment

Why We Did This Review            Results of Technical Network Vulnerability
The Environmental Protection
                                  Assessment: EPA’s National Health &
Agency (EPA), Office of           Environment Effects Research Laboratory,
Inspector General, conducted      Western Ecology Division
this audit to identify
vulnerabilities associated with
the Agency’s network devices       What We Found
located in EPA’s National
Health & Environment Effects      Vulnerability testing of EPA’s NHEERL Western Ecology Division network
Research Laboratory               conducted in March 2011 identified Internet Protocol addresses with numerous
(NHEERL) Western Ecology          high-risk and medium-risk vulnerabilities. The Office of Inspector General met
Division building, and provide    with EPA information security personnel to discuss the findings. If not resolved,
the results to the appropriate    these vulnerabilities could expose EPA’s assets to unauthorized access and
EPA officials who can then        potentially harm the Agency’s network.
promptly remediate and/or
document planned actions to        What We Recommend
resolve the identified
vulnerabilities. This audit was   We recommend that the Senior Information Official, Office of Research and
conducted in support of the       Development, and Director, Enterprise Desktop Solutions Division, Office of
annual audit of EPA’s             Environmental Information:
compliance with the Federal
Information Security                 	 Provide the Office of Inspector General a status update for all identified
Management Act.                         high-risk and medium-risk vulnerability findings contained in this report.
                                     	 Create plans of action and milestones in the Agency’s Automated Security
                                        Self-Evaluation and Remediation Tracking system for all vulnerabilities
                                        that cannot be corrected within 30 days of this report.
                                     	 Perform a technical vulnerability assessment test of assigned network
                                        resources within 60 days to confirm completion of remediation activities.

                                  The full report is not available to the public due to the sensitive nature of its
                                  technical findings.




For further information,
contact our Office of
Congressional, Public Affairs
and Management at
(202) 566-2391.
